No:
IN THE
SUPREME COURT OF THE UNITED STATES
MAURICIO ALVAREZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Mauricio Alvarez, by and through undersigned counsel and pursuant to SUP. CT.
R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for Writ of Certiorari filed
in the above-styled matter was sent in an envelope via third party commercial carrier for
delivery within three days, addressed to the Clerk of the Supreme Court of the United
States, on the 4th day of September, 2020, which is the time the petition for
writ of certiorari is due.
MICHAEL CARUSO
Federal Public Defender
Miami, Florida
September 4, 2020

By:

s/Bonnie Phillips-Williams
Bonnie Phillips-Williams
Assistant Federal Public Defender
150 West Flagler Street, Suite 1500
Miami, Florida 33130-1555
(305) 536-6900

